Audit Report




OIG-11-080
SAFETY AND SOUNDNESS: Material Loss Review of TierOne
Bank
July 12, 2011




Office of
Inspector General
Department of the Treasury
Contents

Audit Report...............................................................................................        1

    Causes of TierOne’s Failure ........................................................................           2
      TierOne’s LPO Strategy Resulted in a Concentration of High-Risk
      Construction and Land Development Loans ..............................................                       3
      TierOne’s Board and Management Did Not Establish Adequate Risk
      Management, Underwriting, and Credit Administration Practices ................                               3
      TierOne Management Delayed Recognition of Problem Loans and Losses.....                                      5

    OTS’s Supervision of TierOne. ....................................................................             5
      OTS Did Not Identify Issues at TierOne’s Las Vegas LPO Until 2008 ...........                                6
      OTS Took Enforcement Action and PCA as TierOne’s Financial Condition
      Deteriorated .........................................................................................       7
      OTS Internal Failed Bank Review ............................................................                 8

    Recommendations .....................................................................................          9

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                 11
    Appendix     2:      Background........................................................................      13
    Appendix     3:      Management Response .......................................................             15
    Appendix     4:      Major Contributors to This Report .........................................             16
    Appendix     5:      Report Distribution ..............................................................      17

Abbreviations

    ALLL                 allowance for loan and lease losses
    C&D order            cease and desist order
    FDIC                 Federal Deposit Insurance Corporation
    MLR                  material loss review
    MRBA                 matter requiring board attention
    OIG                  Treasury Office of Inspector General
    OTS                  Office of Thrift Supervision
    PCA                  prompt corrective action
    OREO                 other real estate owned
    ROE                  report of examination
    TFR                  thrift financial report




                         Material Loss Review of TierOne Bank (OIG-11-080)                                     Page i
This page intentionally left blank
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General



                        July 12, 2011

                        John E. Bowman, Acting Director
                        Office of Thrift Supervision

                        This report presents the results of our review of the failure of TierOne
                        Bank (TierOne), of Lincoln, Nebraska, and of the Office of Thrift
                        Supervision’s (OTS) supervision of the institution. OTS closed TierOne
                        and appointed the Federal Deposit Insurance Corporation (FDIC) as
                        receiver on June 4, 2010. This review was mandated by section 38(k)
                        of the Federal Deposit Insurance Act because of the magnitude of
                        TierOne’s estimated loss to the Deposit Insurance Fund. 1 As of April
                        30, 2011, FDIC estimated that the loss to the Deposit Insurance Fund
                        would be $313.8 million. FDIC also estimated a loss of $4.7 million to
                        the Transaction Account Guarantee Program.

                        Our objectives were to determine the causes of TierOne’s failure;
                        assess OTS’s supervision of the bank, including implementation of the
                        prompt corrective action (PCA) provisions of section 38; and make
                        recommendations for preventing such a loss in the future. To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed OTS and FDIC officials. We conducted our fieldwork from
                        August 2010 through November 2010. Appendix 1 contains a more
                        detailed description of our review objectives, scope, and methodology.
                        Appendix 2 contains background information on TierOne’s history and
                        OTS’s assessment fees and examination hours. Definitions of certain
                        terms, which are underlined where first used in this report, are
                        available in a separate document, OIG-11-065, on the Treasury Office
                        of Inspector General’s (OIG) website.

                        In brief, TierOne failed primarily because of significant loan losses from
                        its concentration of construction and land development loans. While

1
 At the time of TierOne’s failure, Section 38(k) defined a loss as material if it exceeded the greater of $25
million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines a loss as
material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for calendar years 2012
and 2013, and $50 million for calendar years 2014 and thereafter (with a provision that the threshold can
be raised temporarily to $75 million if certain conditions are met).


                        Material Loss Review of TierOne Bank (OIG-11-080)                             Page 1
              pursuing a strategy of increasing these loans, TierOne’s board and
              management did not provide effective oversight or establish adequate
              credit underwriting and administration controls, particularly at the
              thrift’s Las Vegas, Nevada, loan production office (LPO). The Las
              Vegas LPO was responsible for a majority of these losses.

              OTS, in its supervision of TierOne, did not identify problems with the
              thrift from 2002 through 2007, rating the thrift a CAMELS
              composite 1 during this period. In January 2009, after OTS identified
              excessive concentrations, deficient credit underwriting and
              administration practices, and poor board and management oversight,
              OTS executed a supervisory agreement requiring TierOne to correct
              these problems. As TierOne reported falling capital levels, OTS used
              its authority under PCA, issuing a PCA directive in March 2010 and a
              cease and desist (C&D) order in June 2010 to require the thrift to
              increase its capital levels. By then it was too late to save the thrift.

              It should be noted that certain matters at TierOne are under further
              review by OTS and other agencies. We referred these matters to the
              Treasury Inspector General’s Office of Investigations.

              We are not making any new recommendations in this report, but are
              reaffirming two recommendation made in a previous material loss
              review (MLR) of an OTS-regulated thrift, where we identified similar
              causes of failure and made similar findings regarding OTS’s
              supervision. In a written response, OTS stated that it has implemented
              the actions recommended in prior OIG MLR reports and internally
              prepared assessments of other thrift failures. OTS’s response is
              provided as appendix 3. It should be noted that pursuant to P.L. 111-
              203, the functions of OTS are to transfer to other federal banking
              agencies on July 21, 2011.


Causes of TierOne’s Failure
              TierOne failed primarily because of significant losses in its
              construction and land development loan portfolio, originated largely
              through LPOs. TierOne concentrated its growth in these loans without
              ensuring adequate risk management, underwriting, and credit
              administration practices. A majority of TierOne’s deficiencies and loan
              losses were related to loans originated by its Las Vegas LPO. The loan


              Material Loss Review of TierOne Bank (OIG-11-080)               Page 2
losses greatly diminished earnings and eroded capital, which led to
TierOne’s failure.

TierOne’s LPO Strategy Resulted in a Concentration of High-Risk
Construction and Land Development Loans

From 2002 through 2005, TierOne opened or acquired nine LPOs in
six states for the purpose of originating construction and land
development loans, a strategy which OTS considered high-risk.
Production from the LPOs created a concentration in construction and
land development loans as TierOne’s loan portfolio grew from $1.9
billion in 2002 to its peak of $3.7 billion by 2006. From its opening in
December 2005 through December 2006, the Las Vegas LPO
produced over $262 million in loans equaling almost 30 percent of
TierOne’s 2006 loan production.

Beginning in 2008, TierOne’s board and management reduced lending
in response to the economic downturn but by then it was too late for
the thrift to mitigate the risk already present in its loan portfolio. This
excessive concentration resulted in substantial losses for the thrift
when conditions in the real estate market deteriorated. TierOne
sustained a net loss of $284.1 million from 2007 through 2009. By
2009, losses from the Las Vegas LPO’s loans had reached $131
million.

TierOne’s Board and Management Did Not Establish Adequate Risk
Management, Underwriting, and Credit Administration Practices

TierOne’s risk management, underwriting, and credit administration
practices were inadequate. Among other things, TierOne did not
adequately analyze the financial condition of its borrowers and the
appropriateness of loan disbursements. Many of the loans TierOne
approved exceeded the supervisory loan-to-value ratio limitations
established by the board. Most of TierOne’s deficiencies were
associated with its Las Vegas LPO.

In the 2008 report of examination (ROE), OTS examiners concluded
that the Las Vegas LPO engaged in “…reckless, high-risk lending
activities, with blatant disregard for prudent credit administration
procedures…” while under the control of the regional lending manager.
TierOne’s board and management had relinquished managerial and


Material Loss Review of TierOne Bank (OIG-11-080)                  Page 3
                      oversight of its Las Vegas LPO to the regional lending manager.
                      TierOne also provided the regional lending manager with a
                      compensation package that rewarded loan production volume with no
                      consideration for loan quality and performance. In the 2008 ROE,
                      examiners stated that the regional lending manager’s compensation
                      package was excessive and was considered a prohibited unsafe and
                      unsound practice as loans originated through the Las Vegas LPO were
                      directly responsible for TierOne’s significant financial loss.2

                      In the 2008 ROE, OTS examiners also concluded that TierOne’s board
                      and management violated their respective fiduciary duty to exercise
                      the highest standard of care in the conduct, management, and
                      oversight of the thrift’s affairs. According to OTS regional officials,
                      TierOne’s CEO was dominant and influential over the board and
                      management. According to one OTS official, the board could not be
                      considered independent since the CEO had handpicked the directors.
                      Furthermore, the board did not actively challenge management even
                      when it seemed to have cause to do so. For example, the board
                      approved $525,000 in bonuses to executive management and $33.9
                      million in dividends to its holding company in December 2007, 3
                      despite incurring a $9 million net loss for the year and $36.7 million in
                      loan loss provisions for the quarter ended December 2007. In 2008,
                      when directed to do so by OTS, the holding company returned $29.1
                      million of the $33.9 million in dividends to TierOne. OTS, however, did
                      not require any of the executive bonuses to be returned.

                      In May 2010, OTS initiated a formal investigation of the board, senior
                      management, and the manager of the Las Vegas LPO after suspecting
                      TierOne’s board and management were engaged in apparent unsafe or
                      unsound practices.




2
  Appendix A to 12 C.F.R. Part 570, Interagency Guidelines Establishing Standards For Safety and
Soundness, states that excessive compensation is prohibited as an unsafe and unsound practice if it could
lead to material financial loss to an institution. Compensation is considered excessive when it is
unreasonable and disproportionate to the services performed considering such factors as compensation
practices at comparable institutions, and the financial condition of the institution.
3
  TierOne paid the dividends in 2007 and bonuses in 2008.

                      Material Loss Review of TierOne Bank (OIG-11-080)                          Page 4
             TierOne Management Delayed Recognition of Problem Loans and
             Losses

             In the 2008 and 2009 ROEs, OTS examiners determined TierOne’s
             management of the ALLL balance was unsafe and unsound due to its
             untimely recognition of problem loans and losses.

             OTS examiners found instances where TierOne management modified
             construction and land development loans to replenish depleted interest
             reserves, without verifying borrower ability to repay and in spite of
             material losses in property values. This practice made the loans appear
             current when, in fact, they were not.

             Also, TierOne’s management often failed to order updated appraisals
             when modifying loans or when material deterioration in property
             values was evident. In many instances, the original appraisal report
             was over 2 years old. OTS and TierOne’s internal auditors identified
             this issue in 2008 but TierOne management took no corrective action
             to improve the appraisal practices until prompted again by OTS
             examiners during the 2009 examination. After obtaining updated
             appraisals, TierOne management recorded $120 million in loan loss
             provisions and $10.8 million in other real estate owned (OREO) write-
             downs.


OTS’s Supervision of TierOne
             OTS performed timely examinations of TierOne in accordance with
             examination guidelines and, in 2005 and 2007, rated the thrift a
             CAMELS composite 1. OTS did not identify problems with TierOne
             until 2008, when OTS found excessive concentrations, deficient credit
             underwriting and administration practices, and poor board and
             management oversight. As TierOne reported falling capital levels, OTS
             took enforcement action and appropriately used its authority under
             PCA. In January 2009, OTS executed a supervisory agreement with
             the thrift which treated TierOne as less than well-capitalized and
             required the thrift to correct its problems. By then, the loan portfolio
             was incurring significant deterioration and losses. In February 2010,
             OTS issued a PCA directive and in June 2010 a cease and desist
             (C&D) order to require the thrift to increase its capital levels. However,
             these actions were too late to save the thrift.


             Material Loss Review of TierOne Bank (OIG-11-080)                Page 5
                     Table 1 summarizes the results of OTS’s examinations of TierOne
                     from 2005 until its closure in June 2010.

           Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against TierOne
                                                            Examination Results
Examination                                                     No. of
start date and      Total assets      CAMELS       No. of       recommendations/    Enforcement
type                (in billions)     rating       MRBAs        corrective actions  actions
11/07/2005
(full-scope)      $3.2               1/221111        0            1                None
2/26/2007
(full-scope)      $3.4               1/121111        0            0                None
4/28/2008
(limited-scope)   $3.4               3/332311        NA           NA               None
                                                                                   Supervisory
6/02/2008                                                                          agreement
(full-scope)      $3.2               4/344421        20           20               effective 1/2009
8/17/2009
(limited-scope)   $3.2               N/A             N/A          N/A              None
                                                                                   PCA directive
                                                                                   effective 3/2010
10/05/2009                                                                         C&D effective
(full-scope)     $2.9              5/555543          15           15               6/2010
Source: OTS ROEs and enforcement actions.

                     OTS Did Not Identify Issues at TierOne’s Las Vegas LPO Until 2008

                     In 2005 and 2007, TierOne was largely concentrated in high-risk
                     construction and land development loans outside its traditional
                     geographic market. Due in part to strong earnings, OTS assigned
                     TierOne a CAMELS composite rating of 1. However, in 2008 OTS
                     downgraded the thrift to a 4 when examiners identified excessive
                     concentrations, deficient credit underwriting and administration
                     practices, and poor board and management oversight.

                     A major cause of TierOne’s deteriorating condition were the loans
                     originated from the thrift’s Las Vegas LPO. From its opening in 2005,
                     the Las Vegas LPO quickly grew into TierOne’s top producer, financing
                     large and high-risk Nevada construction and land development projects.
                     By December 2006, the LPO’s average loan was many times larger
                     than the average for other loans, a loan average of $5.7 million for the
                     LPO as compared with $0.2 million for the rest of TierOne’s loans. OTS
                     examiners did not express concern about this until June 2008.


                     Material Loss Review of TierOne Bank (OIG-11-080)                     Page 6
Despite the volume of activity at the Las Vegas LPO, OTS examiners
never made an onsite visit. Instead, they only conducted an offsite
review of a sample of high-risk loans, some of which included loans
from the Las Vegas LPO. The offsite review did not identify any
significant credit underwriting and administration deficiencies. An OTS
official questioned whether a visit to the LPO would have made a
difference because OTS examiners reviewed the same loan files, only
in a different location. However, he did state that it would have been
helpful for examiners to determine the lending culture of that office and
to observe its actual operations. It should be noted that OTS’s internal
review of the failure, which is discussed later in this report,
recommended that periodic onsite reviews be made to LPOs in major
locations. In this regard, OTS’s guidance did not require such visits. We
believe such visits would be prudent and in the case of TierOne could
have identified problems earlier, allowing OTS to take actions to
potentially prevent the significant losses it incurred.

OTS Took Enforcement Action and PCA as TierOne’s Financial
Condition Deteriorated

As TierOne’s financial condition deteriorated in 2008 to 2010, OTS
responded with several supervisory actions under its enforcement and
PCA guidelines. These actions included a supervisory agreement in
2009 and both a PCA directive and C&D order in 2010. We concluded
that OTS took the required PCA actions in a timely manner as capital
levels fell below adequately capitalized. Ultimately, however, these
actions were unable to save the thrift.

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take certain
actions when an institution’s capital drops to certain levels. PCA also
gives regulators flexibility to supervise institutions based on criteria
other than capital levels to help reduce deposit insurance losses
caused by unsafe and unsound practices.

OTS took the following key actions related to TierOne in accordance
with PCA requirements:

    •   On January 15, 2009, OTS executed a Supervisory Agreement
        with TierOne. Based on the 2008 ROE, OTS determined that a
        higher level of capital was required given TierOne’s risk profile.

Material Loss Review of TierOne Bank (OIG-11-080)                 Page 7
        The Supervisory Agreement required TierOne to maintain a Core
        Capital ratio of 8.5 percent and a Total Risk-Based Capital ratio
        of 11 percent. Although TierOne’s capital ratios reflected the
        well-capitalized category for PCA purposes, as a result of the
        Supervisory Agreement’s capital requirement, the thrift was no
        longer considered well-capitalized.

    •   On November 13, 2009, OTS notified TierOne that the thrift
        was undercapitalized based upon its September 30, 2009, TFR.
        The required restrictions for an undercapitalized thrift were
        stipulated in the OTS notification, including the requirement to
        file a capital restoration plan no later than December 28, 2009.

    •   On February 19, 2010, OTS notified TierOne that the thrift was
        significantly undercapitalized based on its December 31, 2009,
        TFR filing and now subject to the restrictions for that capital
        category.

    •   On March 31, 2010, OTS issued a PCA directive requiring
        recapitalization of TierOne through merger, acquisition or sale.
        The PCA directive was triggered by the denial of the Capital
        Restoration Plan which TierOne filed on December 23, 2009
        and supplemented on February 16, 2010.

    •   On June 3, 2010, OTS executed a C&D order directing TierOne
        to cease and desist from engaging in unsafe and unsound
        practices and violations of law and regulations cited in the 2009
        ROE.

OTS Internal Failed Bank Review

In accordance with its policy, OTS completed an internal failed bank
review of TierOne and concluded similar to our material loss review
that the thrift’s failure resulted primarily from the deterioration of its
loan portfolio, largely originated by its Las Vegas LPO. According to
the internal review, TierOne failed due to losses in its high-risk loans,
especially construction and land development loans. Contributing to
the failure was a lack of management oversight and control of the Las
Vegas LPO and construction loan purchases in Florida, as well as the
significant real estate market decline. The internal review
recommended that (1) OTS examination and supervisory staff consider

Material Loss Review of TierOne Bank (OIG-11-080)                Page 8
                        higher capital requirements as well as absolute limitations of higher-
                        risk lending concentrations, (2) thrifts be required to submit a notice
                        and a business plan when opening LPOs at remote locations and that
                        examiners conduct onsite reviews at major locations on a periodic
                        basis, and (3) OTS examination and supervisory staff ensure that
                        thrifts have appropriate controls in place to balance risks and rewards.
                        The internal review findings are consistent with the results of our
                        material loss review.


Recommendations
                        We are not making any new recommendations in this report, but we
                        are reaffirming recommendations made in OTS’s internal review and in
                        a previous MLR report of an OTS-regulated thrift regarding
                        concentration limits.

                        In our June 2009 MLR report for PFF Bank and Trust 4 we reported
                        that a primary cause of failure was its high concentration in
                        construction and land loans and related credit losses. In this report,
                        we recommended that OTS direct examiners to closely review and
                        monitor thrifts that refuse to establish appropriate limits for
                        concentrations that pose significant risk and pursue corrective action
                        when concentration limits are not reasonable. We also recommended
                        that OTS assess the need for more guidance for examiners on
                        determining materiality of concentrations and determining appropriate
                        examiner response to high-risk concentrations. The failure of TierOne
                        was another case in which a thrift failed primarily because its loans
                        were highly concentrated. Therefore, we also reaffirm the
                        recommendations made in this MLR report.

                        With respect to the OTS internal failed bank review recommendation
                        that examiners conduct onsite reviews at major locations (in the case
                        of TierOne, the Las Vegas LPO) on a regular basis, we believe that is a
                        prudent action. However, given that pursuant to the Dodd-Frank Wall
                        Street Reform and Consumer Protection Act of 2010, the functions of
                        OTS are to be transferred to other federal banking agencies in July
                        2011, we are not making a specific recommendation to OTS regarding
                        an onsite review policy in this report.


4
    Safety and Soundness: Material Loss Review of PFF Bank and Trust, OIG-09-038 (June 12, 2010).

                        Material Loss Review of TierOne Bank (OIG-11-080)                      Page 9
                              * * * * *

We appreciate the cooperation and courtesies extended to our staff
during the audit. If you wish to discuss the report, you may contact
me at (617) 223-8640 or Lisa Ginn, Audit Manager, at
(617) 223-8624. Major contributors to this report are listed in
appendix 4.



/s/
Donald P. Benson
Audit Director




Material Loss Review of TierOne Bank (OIG-11-080)            Page 10
                          Appendix 1
                          Objectives, Scope, and Methodology




                          We conducted this material loss review of TierOne Bank (TierOne),
                          of Lincoln, Nebraska, in response to our mandate under section
                          38(k) of the Federal Deposit Insurance Act. 5 This section provides
                          that if the Deposit Insurance Fund incurs a material loss with
                          respect to an insured depository institution, the inspector general
                          for the appropriate federal banking agency is to prepare a report to
                          the agency that

                          •   ascertains why the institution’s problems resulted in a material
                              loss to the insurance fund;
                          •   reviews the agency’s supervision of the institution, including its
                              implementation of the prompt corrective action provisions of
                              section 38; and
                          •   makes recommendations for preventing any such loss in the
                              future.

                          At the time of TierOne’s failure, on June 4, 2010, section 38(k)
                          defined a loss as material if it exceeded the greater of $25 million
                          or 2 percent of the institution’s total assets. We initiated a material
                          loss review of TierOne based on the loss estimate by the Federal
                          Deposit Insurance Corporation (FDIC). As of February 28, 2011,
                          FDIC estimated that the loss to the Deposit Insurance Fund from
                          TierOne’s failure would be $313.8million. 6 FDIC also estimated a
                          loss of $4.7 million to the Transaction Account Guarantee
                          Program.

                          Our objectives were to determine the causes of TierOne’s failure
                          and assess the Office of Thrift Supervision’s (OTS) supervision of
                          the bank. To accomplish our review, we conducted fieldwork at
                          OTS’s central region office in Chicago, Illinois and conducted
                          telephone interviews of OTS personnel at OTS’s headquarters in
                          Washington, D.C., western region office in Irving, Texas, and field
                          office in Lincoln, Nebraska. We also performed work and
                          interviewed officials at FDIC’s Division of Resolutions and
                          Receiverships in Dallas, Texas and interviewed officials at FDIC’s
                          regional office in Kansas City, Missouri. We conducted our
                          fieldwork from August 2010 through November 2010.



5
    12 U.S.C. § 1831o(k).
6
     At closing, the loss estimate to the Deposit Insurance Fund was $289.7 million.

                          Material Loss Review of TierOne Bank (OIG-11-080)               Page 11
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OTS’s supervision of TierOne, we
performed the following work.

•   We reviewed OTS’s supervisory files and records for TierOne
    from 2005 through June 2010. We analyzed examination
    reports, supporting workpapers, and related supervisory
    correspondence to gain an understanding of the problems
    identified, the approach and methodology OTS used to assess
    the bank’s condition, and the regulatory action OTS used to
    compel bank management to address deficient conditions.

•   We interviewed and discussed various aspects of the
    supervision of TierOne with OTS officials and examiners to
    obtain their perspective on the bank’s condition and the scope
    of the examinations. We also interviewed FDIC officials
    responsible for monitoring TierOne for federal deposit insurance
    purposes.

•   We interviewed personnel from FDIC’s Division of Resolutions
    and Receiverships involved in the receivership process, which
    was conducted before and after TierOne’s closure and
    appointment of a receiver.

•   We assessed OTS’s actions based on its internal guidance and
    requirements of the Federal Deposit Insurance Act (12 U.S.C. §
    1811 et seq.).

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of TierOne Bank (OIG-11-080)             Page 12
                       Appendix 2
                       Background




                       History of TierOne

                       Established in 1907, TierOne Bank (TierOne) began operations as
                       First Federal Savings and Loan Association headquartered in
                       Lincoln, Nebraska. In 1995, the thrift changed its name to First
                       Federal Lincoln Bank and also reorganized to a mutual savings bank
                       charter. In 2002 the thrift changed its name to TierOne Bank,
                       established itself as a wholly owned subsidiary of TierOne
                       Corporation. TierOne completed a mutual-to-stock conversion and
                       shares of TierOne Corporation began to sell in an initial public
                       offering. TierOne Corporation began trading on the NASDAQ stock
                       exchange under the symbol TONE.

                       TierOne used the capital obtained from the stock conversion to
                       expand its operations into areas outside of the thrift’s traditional
                       geographical market. From 2002 through 2005, TierOne opened or
                       acquired nine loan production offices (LPO) covering six states. The
                       primary purpose of the LPOs was to originate construction and land
                       development loans.

                       At the time of its failure on June 4, 2010, TierOne had 69 branch
                       offices in Nebraska, Kansas, and Iowa, and over $2.8 billion in
                       total assets.

                       OTS Assessments Paid by TierOne

                       OTS funds its operations in part through semiannual assessments
                       on thrifts. OTS determines each institution’s assessment by adding
                       together three components, the size, condition and complexity of
                       an institution. OTS computes the size component by multiplying an
                       institution’s total assets as reported on the thrift financial report by
                       the applicable assessment rate. The condition component is a
                       percentage of the size component and is imposed on institutions
                       that have a 3, 4, or 5 CAMELS composite rating. OTS imposes a
                       complexity component if (1) a thrift administers more than $1
                       billion in trust assets; (2) the outstanding balance of assets fully or
                       partially covered by recourse obligations or direct credit substitutes
                       exceeds $1 billion; 7 or (3) the thrift services over $1 billion of loans


7
   Direct credit substitutes arise from an arrangement in which a bank assumes, in form or in
substance, credit risk associated with an on- or off-balance sheet asset or exposure that was not

                       Material Loss Review of TierOne Bank (OIG-11-080)                            Page 13
                       Appendix 2
                       Background




                       for others. OTS calculates the complexity component by
                       multiplying set rates times the amounts by which an association
                       exceeds each particular threshold. Table 2 shows OTS’s paid
                       assessments for TierOne for 2005 through 2010.

                       Table 2: Assessments Paid by TierOne to OTS 2005—2010

                        Billing period                Exam rating          Amount paid
                        1/1/2005–6/30/2005                  1                $237,829
                        7/1/2005–12/31/2005                 1                 251,918
                        1/1/2006–6/30/2006                  1                 273,870
                        7/1/2006–12/31/2006                 1                 278,645
                        1/1/2007–6/30/2007                  1                 291,830
                        7/1/2007–12/31/2007                 1                 299,071
                        1/1/2008–6/30/2008                  1                 315,950
                        7/1/2008–12/31/2008                 3                 453,564
                        1/1/2009–6/30/2009                  4                 589,745
                        7/1/2009–12/31/2009                 4                 609,727
                        1/1/2010–6/30/2010                  4                 557,015
                       Source: OTS Electronic Continuing Examination Folder system.


                       Number of OTS Staff Hours Spent Examining TierOne

                       Table 3 shows the number of OTS staff hours spent examining
                       TierOne from 2005 through 2010.

                       Table 3: OTS Hours Spent Examining TierOne, 2005–2010

                                                                                  Number of
                        Examination Start Date       Exam Type             Examination Hours
                        11/7/2005                    Full-scope                       1,557.0
                        2/26/2007                    Full-scope                       1,303.0
                        4/28/2008                    Limited-scope                      275.0
                        6/2/2008                     Full-scope                       1,761.5
                        8/17/2009                    Limited-scope                      250.5
                        10/5/2009                    Full-scope                       2,154.5




previously owned by the bank (that is, it was a third-party asset), and the risk assumed exceeds the
pro-rata share of the bank's interest in the third-party asset.

                       Material Loss Review of TierOne Bank (OIG-11-080)                         Page 14
Appendix 3
Management Response




Material Loss Review of TierOne Bank (OIG-11-080)   Page 15
Appendix 4
Major Contributors to This Report




Boston Audit Office

Lisa Ginn, Audit Manager
Jenny Hu, Auditor-in-Charge
Jason Madden, Auditor
Jim Shepard, Auditor

Washington

James Lisle, Referencer




Material Loss Review of TierOne Bank (OIG-11-080)   Page 16
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member,
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of TierOne Bank (OIG-11-080)         Page 17
